    COMPENDIUM OF AUDITS OF
  FEDERAL TECHNOLOGY SERVICE
CLIENT SUPPORT CENTER CONTROLS

         JUNE 14, 2005
BLANK PAGE
BLANK PAGE
                                        COMPENDIUM OF AUDITS OF
                                      FEDERAL TECHNOLOGY SERVICE
                                    CLIENT SUPPORT CENTER CONTROLS

                                                   TABLE OF CONTENTS
                                                                                                                        Page
INTRODUCTION............................................................................................................... 1
SUMMARY RESULTS ...................................................................................................... 1
ADMINISTRATOR’S RESPONSE ..........................................................................................3
BACKGROUND ................................................................................................................ 5
    Prior CSC Audits ...............................................................................................................6
    Management Initiatives .....................................................................................................6
         Implementation of Section 803 of the National Defense
           Authorization Act for Fiscal Year 2002 .............................................................. 7
         Preaward Legal Review of Major FTS Contract Actions ....................................... 7
         FTS Acquisition Checklists .................................................................................... 7
         Client Support Center Management Plan .............................................................. 7
         ITS Contract/Project Closeout Guidance............................................................... 7
    Audit Objective ............................................................................................................ 7
    Scope .......................................................................................................................... 8
    Methodology ................................................................................................................ 8
    Determination of Compliance with Procurement Regulations..................................... 9

SECTIONS
    New England Region.................................................................................................... I
    Northeast and Caribbean Region................................................................................ II
    Mid-Atlantic Region .................................................................................................... III
    Southeast Sunbelt Region..........................................................................................IV
    Great Lakes Region.....................................................................................................V
    Heartland Region........................................................................................................VI
    Greater Southwest Region ........................................................................................VII
    Rocky Mountain Region ...........................................................................................VIII
    Pacific Rim Region .....................................................................................................IX
    Northwest/Arctic Region ..............................................................................................X
    National Capital Region................................................................................................... XI
    European Business Unit ............................................................................................XII



                                                                    i
BLANK PAGE
                          COMPENDIUM OF AUDITS OF
                        FEDERAL TECHNOLOGY SERVICE
                      CLIENT SUPPORT CENTER CONTROLS


                                  INTRODUCTION

This Compendium relates the results of the audits performed by the General Services
Administration (GSA) Office of Inspector General at the Federal Technology Service’s
(FTS) Regional Client Support Centers (CSC) nationwide. These control reviews were
conducted in response to Section 802(a) of the Ronald W. Reagan National Defense
Authorization Act for Fiscal Year 2005 (Public Law 108-375), requiring the Inspectors
General of the General Services Administration and the Department of Defense to
review each CSC and determine in writing whether the CSC is compliant with defense
procurement requirements, not compliant, or not compliant but making significant
progress toward becoming compliant. Briefings on the outcome of these reviews were
provided to the Senate and House Armed Services Committees; GSA Administrator;
Acting FTS Commissioner; and respective Regional Administrators. We issued written
reports on the outcome of each individual CSC to the Acting Commissioner, FTS and
the respective Regional Administrators. The Compendium presents the combined
results for all CSCs. (The Department of Defense Inspector General will be issuing a
separate report on its review of specific Defense procurements with FTS and related
financial issues.)


                                SUMMARY RESULTS

We determined 11 of the 12 regional CSCs reviewed to be “not compliant with
procurement regulations but making significant progress toward becoming compliant”.
We found that national controls were implemented in all of the CSCs and that
considerable progress is being made to overcome past procurement compliance
deficiencies. None of the CSCs were identified as “not compliant”, which, as specified
in the Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,
would have prohibited those CSCs from conducting procurements in excess of
$100,000 for Department of Defense agencies. We identified the European CSC
(located in the Heartland Region) to be “compliant” in that we identified only minor
deficiencies.

Our comprehensive assessments of each CSC were summarized in individual oral
briefings and written audit reports for each Region. Written summaries of each task
order review were provided to regional officials as they were completed. Regional
comments, both written and oral, were considered in our final assessments. Regional
briefings were also held with the Regional Administrators and Assistant Regional
Administrators for the Federal Technology Service. The Acting FTS Commissioner and
GSA Administrator were briefed after the regional briefings. Written audit reports were
issued to the respective Regional Administrators with copies to the Acting FTS
Commissioner. These regional reports, together with management responses, are
included in their entirety in Sections I through XII.



                                          1
In our January 2004 audit report on the Regions 4, 6, and 10 CSCs, we recommended
that FTS develop a comprehensive, broad-based strategy that focuses on the structure,
operations, and mission of the CSCs as well as the control environment. Based on:
(i) these extensive recommendations, (ii) the GSA Administrator’s agency-wide “Get It
Right” initiative, and (iii) significant agency-wide progress in implementing management
controls and procedures to be in compliance with Defense acquisition requirements, no
further overall recommendations are deemed necessary at this time. As directed by
Section 802(a) of the Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005, the Office of Audits will be conducting another comprehensive testing of
management controls in those CSCs that were not compliant but making significant
progress, by March 2006.

In response to the individual regional reports, the Administrator stated that the agency is
committed to ensuring it is in compliance with all applicable laws and regulations and it
conducts its business with ethics and integrity to secure best value for the Government and
the American taxpayer. The Administrator’s response in its entirety has been included in
this report. The Regional Administrators generally concurred with our findings and
conclusions, and described the comprehensive steps they have initiated and planned
for future implementation. Several Regional Administrators also provided specific
comments on the individual task orders tested. Regional responses are included in
their entirety, and our response, within the individual Regional audit reports in sections I
through XII.




                                             2
ADMINISTRATOR’S RESPONSE




           3
BLANK PAGE




    4
                                         BACKGROUND

The Information Technology (IT) Solutions business line within FTS assists Federal
agencies in identifying technology solutions and acquiring, deploying, managing and
using them. It provides a comprehensive range of IT products and assisted services to
the Federal IT community on a fully cost-reimbursable basis through contracts with
industry partners.

In each of GSA’s regions, CSCs issue and manage task and delivery orders against
existing contracts, manage projects, and maintain a staff of IT managers and project
managers. They rely on a variety of contract vehicles to engage private sector services
to satisfy client agency requirements, including FTS contracts,1 Federal Supply Service
(FSS) Schedules, and Government-wide contracts awarded and managed by the
contracting offices of GSA and other agencies.

CSCs perform direct interface with customer agencies to define requirements, identify
sources of the needed products or services, prepare task and delivery orders, and
manage projects, depending on the level or support that the client requires. They are
authorized to maintain their own contracting staffs and to award small contracts (under
$5 million) and blanket purchase agreements for specific clients wherein the client
agency pays for all contracting and acquisition costs. The CSCs also have profit and
loss responsibility. They assess fees, generally ranging from one to four percent of
product or service cost, to client agencies for the services provided.

The level of contracting activity varies among the CSCs, as shown below. Fiscal Year
(FY) 2004 revenues ranged from $175 million in Region 2 to nearly $1 billion in
Region 4.
                                        REVENUE
                                REGION       FY 2004
                                    1       $203,658,500
                                    2        175,071,800
                                    3        355,851,600
                                    4        962,904,700
                                    5        340,626,800
                                    6        687,364,000
                                    7        706,625,600
                                    8        284,394,200
                                    9        731,377,800
                                   10        314,976,200
                                   11        569,943,000
                                  CO 2        74,917,300
                                 TOTAL $5,407,711,500

1
    FTS provided Solution Development Centers (SDCs) as centers of contracting expertise that the
    regional CSCs can rely on. As an example, the Small Business SDC provides a suite of
    competitively awarded contracts set aside for 8(a) program certified small and disadvantaged
    businesses. (FTS SDCs are now part of the Federal Supply Service.)
2
    Central Office.


                                                 5
Total CSC procurements have generally increased over the last several years: $3.8
billion in FY 2001, $4.7 billion in FY 2002, $5.8 billion in FY 2003, and $5.4 billion in FY
2004. Department of Defense (DoD) customers represent over 85 percent of the
business of the CSCs, and the majority (60 percent) of CSC task and delivery orders, in
terms of dollars, are issued against FSS Schedules. Tasks for services represent the
majority of CSC business.

Prior CSC Audits

We performed prior audits of FTS CSC contracting practices, identifying numerous
improper task order and contract awards, including improper sole-source awards, misuse of
small business contracts, allowing work outside the contract scope, improper order
modifications, frequent inappropriate use of time-and-materials task orders, and not
enforcing contract provisions. In our January 2004 report3 on contracting practices in 3
regions, we recommended that FTS: (1) perform a detailed analysis of the factors
contributing to the problems identified, including an ineffective system of internal controls;
(2) based on this analysis, determine what changes are needed in the structure, operations,
and mission of the CSCs; and (3) develop additional performance measures that promote
competition and other sound procurement practices.

In our December 2004 Compendium audit report 4 on FTS CSC Contracting Practices, we
reported on the results of a nationwide review requested by the GSA Administrator, to
determine the nature and breadth of procurement deficiencies within the multi-billion dollar
FTS CSC contracting program. The Chairman of the Senate Finance Committee had also
requested that we provide continuing oversight of CSC operations to ensure that
deficiencies are appropriately addressed. Our analysis of 227 task orders awarded in
FY 2003 identified numerous improper contracting practices, such as inadequate
competition, lack of support for fair and reasonable pricing, improper task order
modifications, and unjustified time-and-materials contracts.

This review also included a limited analysis of 105 more recent task orders awarded in
FY 2004. We generally found some improvement from recently enhanced management
controls put in place in the CSCs, although in some regions we found several of the same
issues identified in our review of 2003 procurements. Based on the comprehensive
recommendations in our January 2004 report, no further overall recommendations were
deemed necessary.


Management Initiatives

In response to our audit findings and report recommendations, FTS initiated, through a
series of policy letters, memoranda, and other guidance, a number of improvement actions:




3
    “Audit of Federal Technology Service’s Client Support Centers,” Audit Report Number
    A020144/T/5/Z04002, issued January 8, 2004.
4
 “Compendium of Audits of the Federal Technology Service Regional Client Support Centers, dated
December 14, 2004.


                                               6
• Implementation of Section 803 of the National Defense Authorization Act for Fiscal
Year 2002 - On March 11, 2003, FTS issued guidance for implementing Section 803,
Competition Requirement for Purchase of Services Pursuant to Multiple Award
Contracts, of the National Defense Authorization Act for Fiscal Year 2002 (Public Law
107-107). Each procurement in excess of $100,000 made under a multiple award
contract must be on a competitive basis unless a contracting officer of the Department
of Defense waives the requirement and justifies the determination in writing.

• Preaward Legal Review of Major FTS Contract Actions - In an October 1, 2003
memorandum, FTS specified certain contractual actions that require legal review,
approval, and concurrence to assure compliance with applicable laws, regulations, and
policies, including Executive Orders, and that the decisions made are legally sufficient.

• FTS Acquisition Checklists - A series of acquisition checklists, intended to serve as
tools to facilitate the conduct of proper acquisitions within FTS, were issued October 6,
2003. The applicable checklists are required to be completed for all FTS acquisitions.

• Client Support Center Management Plan - FTS established a national standard
(FTS Action Plan) governing internal controls for task order acquisition activities,
including pre-award and post-award oversight, training requirements, and management
controls, on November 25, 2003. CSCs must establish individual definitive CSC
Management Plans for performing self-assessments and developing management and
control goals.

• ITS Contract/Project Closeout Guidance - On May 28, 2004, FTS mandated the
development and implementation of written contract and project closeout procedures,
including assignments of specific responsibilities to specific FTS Associates.

Further, in July 2004, the Administrator, in conjunction with DoD’s Director of Defense
Procurement and Acquisition Policy, launched the “Get It Right” initiative to ensure proper
contracting practices, and clients and taxpayers receive the best value. The Plan reaffirms
GSA’s deep commitment to ensuring the proper use of GSA contracting vehicles and
services. The five objectives of this initiative are: (1) secure the best value for federal
agencies and American taxpayers through an efficient and effective acquisition
process; (2) make acquisition policies, regulations, and procedures clear and explicit;
(3) improve education/training of the federal acquisition workforce; (4) ensure
compliance with federal acquisition policies, regulations, and procedures; and
(5) communicate with the acquisition community and stakeholders. Specific steps to
achieve the “Get It Right” objectives to foster acquisition excellence were established.
Their progress is closely monitored and published on the GSA website (www.gsa.gov).

Audit Objective

The Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005 (Public
Law 108-375) mandated this review. Section 802(a) directs the Inspectors General of the
General Services Administration and the Department of Defense to jointly review the
policies, procedures, and internal controls for each CSC, and determine in writing whether
each CSC is compliant with defense procurement requirements; not compliant; or not
compliant, but made significant progress during 2004 toward becoming compliant. The Act


                                            7
also directs that if a CSC is determined to be “not compliant”, or “not compliant but making
significant progress”, another review shall be performed, not later than March 15, 2006, to
determine whether that CSC is compliant with defense procurement requirements. The Act
specifies that, after March 15, 2005, Department of Defense officials may not order,
purchase, or otherwise procure property or services, in an amount in excess of $100,000,
through any CSC determined to be “not compliant” with defense procurement requirements.
However, for the period March 15, 2005 through March 15, 2006, CSCs determined to be
“not compliant but making significant progress” can continue to process Defense orders
over $100,000.


Scope

Our review included CSCs in each GSA Region and the European Business Unit
(located in the Heartland Region). We sampled CSC contracting actions occurring
between August 1, 2004 and October 31, 2004, and spot-checked November and
December 2004 actions. We also analyzed various funding deficiencies on contract
actions referred by the DoD OIG.

We reviewed new orders as well as modifications to existing orders to determine
whether the new national internal controls are being successfully integrated into the
CSCs’ contracting procedures and how previously identified deficiencies on existing
orders and modifications are being remediated. Though we reviewed both DoD and
civilian agency procurements, the vast majority dealt with the DoD. Nationwide, we
reviewed a total of 182 awards. The value of these awards, including options, is
$2,025,728,645:

                  Orders        No. of Task Orders         Value
                  New                   149            $ 477,767,498
                  Existing               33            $1,547,961,147
                  Totals                182            $2,025,728,645

Methodology

We reviewed a random sample of 149 new orders, with a minimum of 10 for each of the
12 CSCs.5 (Other orders above the minimum were randomly selected for individual
CSCs according to the dollar value of new task orders processed by each CSC during
our sample period.) Further, we stratified the random sample to ensure we reviewed
task orders of varying dollar amounts, but weighted our sample with more task orders of
higher dollar value, that represent the most financial risk. The 12 orders in our highest
stratum were valued at more than $134.5 million. We selected the strata based on
internal control points that FTS has established: competition requirements for service
procurements over $100,000; requests for additional price discounts when FSS
Schedule orders exceed the Maximum Order Threshold, typically $500,000; and legal
review required for procurements exceeding $5 million.

5
    Only 9 new orders were reviewed in Region 3 due to the limited number of higher dollar task
    orders processed during the review period.


                                               8
                           Stratum            $ Value
                              1       Less than $100,000
                              2       $100,001 - $500,000
                              3       $500,001 - $5,000,000
                              4       $5,000,001 and above

We also reviewed a risk-based judgmental sample of 33 existing order modifications
during the audit sample period. This sample consisted of two orders per each of the
CSCs (24 orders), and additional orders allocated across the CSCs according to the
value of existing order modifications processed by each CSC during our sample period.

Determination of Compliance with Procurement Regulations

In developing criteria for determining whether each CSC was “compliant”, “not
compliant”, or “not compliant but making significant progress”, we considered the
significance and magnitude of the procurement deficiencies found in our past audits, as
well as the significant management attention and efforts recently initiated to correct past
problems. We recognized that with the launch of the “Get It Right” initiative only a
month prior to our audit sample period, many CSCs would still be implementing
improvements, and we would likely still find deficiencies. However, given the number
and magnitude of contracting deficiencies we have identified in past audits, we wanted
to bring all deficiencies to management’s attention as it works to ensure adequate
controls.

Thus, we did not determine a CSC to be “compliant” unless it demonstrated adequate
management controls were in place and proper contracting practices followed, with
nothing more than minor or administrative deficiencies6 identified. Where controls had
not been implemented and substantive deficiencies were identified, or if controls were
generally implemented but deficiencies were identified with significant potential financial
impact, we would have determined the CSC to be “not compliant”. Where CSCs had
generally implemented controls, but substantive deficiencies were identified, although
not involving significant potential financial impact, we determined the CSC to be “not
compliant but making significant progress”.

We identified contracting deficiencies as having potential financial impact when there
was evidence that the Government may have paid more than it should have, such as
when only 1 bid was received and there was an inadequate Best Value pricing
determination, or where the Maximum Order Threshold was exceeded, but discounts
were not requested or received. We considered the potential financial impact as
significant if the total value of deficient orders exceeded 10 percent of the total sample
contract dollars for the CSC.




6
    We considered minor or administrative deficiencies to include missing acquisition checklists or
    minor documentation, and unsigned or undated Independent Government Cost Estimates,
    Acquisition Plans, Time and Materials Determinations and Findings, or Interagency Agreements.


                                                 9
We reviewed the following procurement requirements to determine whether any
deficiencies existed:

    •   Section 803 Competition Requirements
    •   Legal Review
    •   Interagency Agreement
    •   Best Value Determination
    •   Determinations and Findings, and Ceiling Price, for Time & Materials Contracts
    •   Request for Discounts for Purchases Above Maximum Order Threshold
    •   Proposal Evaluations
    •   Acquisition Plan
    •   Scope of Work
    •   Quality Assurance Surveillance Plan
    •   Evaluation of Other Direct Costs
    •   Proper Use of Funds
    •   Modifications to Existing Orders
    •   Remediation of Existing Orders with Deficiencies

These audits, performed in accordance with generally accepted Government auditing
standards, were conducted during the period October 2004 through March 2005.




                                           10
SECTIONS
BLANK PAGE
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
          NEW ENGLAND REGION
    REPORT NUMBER A050009/T/1/Z05014

             MAY 18, 2005




                  I
BLANK PAGE
               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER
                 CONTROLS AND TESTING OF CONTROLS
                         NEW ENGLAND REGION
                   REPORT NUMBER A050009/T/1/Z05014

                                 MAY 18, 2005



                             TABLE OF CONTENTS

                                                        Page

OBJECTIVE, SCOPE, AND METHODOLOGY                         I-1

RESULTS OF AUDIT                                          I-1

     Procurement Compliance Deficiencies                  I-2

     Other Procurement Compliance Deficiencies            I-2

     Existing Order Procurement Deficiency                I-2

CONCLUSION                                                I-2

MANAGEMENT COMMENTS                                       I-3

INTERNAL CONTROLS                                         I-3

MANAGEMENT RESPONSE                                     I-A-1




                                             i
BLANK PAGE
I-1
non-compliance with the competition requirements of Section 803 of the National
Defense Authorization Act for fiscal year 2002. However, we did find 2 new orders that
had procurement compliance deficiencies, but with limited potential financial impact; 1
new order with procurement deficiencies without potential financial impact; and on 2
existing orders, remedial action was not taken on prior deficiencies. As directed in the
Ronald Reagan National Defense Authorization Act for fiscal year 2005, because the
CSC is not fully compliant, we are required to perform a subsequent audit of CSC
contracting practices by March 2006 to determine whether the CSC has become
compliant.

Procurement Compliance Deficiencies: We identified a $3.1 million schedule order for
Defense intelligence support that did not undergo a best value determination. The CSC
complied with competition requirements and received proposals, but FTS did not
analyze the proposed labor mix or level of effort in its evaluation of price. We also
identified that an $81,000 order for computer hardware and software support to the
users of office computer systems was awarded without a best value determination being
made by the Contracting Officer.1

Other Procurement Compliance Deficiencies: An order of $131,000 for the purchase of
software lacked an acquisition plan as required by the FAR and by the national controls
outlined by FTS Central Office.

Existing Order Procurement Deficiency: We identified 2 existing orders that had prior
deficiencies where measures were not taken to remediate these deficiencies:

    •   An original contract was awarded for $12 million for a multi year initiative to
        upgrade wide area network infrastructure to support IT modernization. The file
        for the original award did not show that the CSC performed any pricing analysis
        on the original scope of work, and the procurement did not have a T&M
        determination of findings. The CSC modified the contract by $3.7 million for
        additional work without any remedial actions on the original contract award.

    •    A $37 million existing task order did not undergo a best value determination.
        The CSC complied with competition requirements but FTS did not analyze the
        proposed labor mix or level of effort in its evaluation of price. Also, there was no
        justification for the use of a T&M contract.

Conclusion

While not fully compliant, we found that the New England Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.    The CSC has implemented national controls identified in the
Administrator’s Get It Right Initiative and improved its overall contracting practices.
However, we did find procurement compliance deficiencies in 3 new orders and
1
 This procurement was an 8(a) award and therefore did not require competition, although the best value
determination should have been documented.


                                                  I-2
I-3
BLANK PAGE
                      ATTACHMENT 1
MANAGEMENT RESPONSE




      I-A-1
                                                 ATTACHMENT 1
                           MANAGEMENT RESPONSE




Note: Sensitive vendor data was redacted.




                                       I-A-2
                      ATTACHMENT 1
MANAGEMENT RESPONSE




      I-A-3
BLANK PAGE
           REVIEW OF
 FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER CONTROLS
    AND TESTING OF CONTROLS
NORTHEAST AND CARIBBEAN REGION
REPORT NUMBER A050009/T/2/Z05024

          MAY 18, 2005




              II
BLANK PAGE
                              REVIEW OF
                    FEDERAL TECHNOLOGY SERVICE’S
                   CLIENT SUPPORT CENTER CONTROLS
                       AND TESTING OF CONTROLS
                   NORTHEAST AND CARIBBEAN REGION
                   REPORT NUMBER A050009/T/2/Z05024

                                MAY 18, 2005



                            TABLE OF CONTENTS

                                                              Page

OBJECTIVE, SCOPE, AND METHODOLOGY                              II-1

RESULTS OF AUDIT                                               II-2

Procurement Compliance Deficiencies with No Identified         II-2
  Potential Financial Impact

Inadequate Remediation Progress Concerning Existing Orders     II-3
  With Prior Deficiencies

CONCLUSION                                                     II-3

MANAGEMENT COMMENTS                                            II-3

INTERNAL CONTROLS                                              II-4

MANAGEMENT RESPONSE                                          II-A-1




                                          i
BLANK PAGE
II-1
Results of Audit

We determined the Region 2 CSC to not be fully compliant but making significant
progress.      The Region has implemented national controls identified in the
Administrator’s “Get it Right” Plan, and has enhanced regional controls, while improving
its overall contracting practices compared with our past audit findings. For example, we
did not find any instances of non-compliance with the competition requirements of
Section 803 of the National Defense Authorization Act for Fiscal Year 2002. However,
we did find 2 new orders that had procurement compliance deficiencies, although there
was no identified potential financial impact. In our review of 2 existing orders, we found
that both had prior deficiencies that had inadequate remediation progress.

As directed in the Ronald Reagan National Defense Authorization Act for Fiscal Year
2005, because the CSC is not fully compliant, we are required to perform a subsequent
audit of CSC contracting practices by March 2006 to determine whether the CSC has
become compliant.

Procurement Compliance Deficiencies with No Identified Potential Financial Impact. The
CSC awarded a $48,000 open market order for the purchase of 6 Antenna Low Noise
Amplifier retrofit kits, on a sole-source basis, to a contractor that retained proprietary
rights to both the drawing designs and an interoperable part. The Justification for Award
(JFA) incorporated the client’s Independent Government Cost Estimate (IGCE), which
compared the sole-source quote to open market pricing for two other vendors, one of
whom had prepared the original drawings for the kits and the other had been the ship-to
party on a previous order for the kits. The task order file did not include supporting
documentation for these quotes, and we found it improbable that the other two vendors
could have provided the retrofit kits. Although the Contracting Officer’s price
reasonableness determination was also based on previous procurements by another
CSC, we were concerned that the IGCE was reflective of our past audit finding that the
CSC frequently incorporated client estimates into the JFA for large services task orders,
without establishing the validity of the amounts. The CSC recently took a positive step
toward improvement by issuing an ICGE Guidance Procurement Bulletin.

Under an Indefinite Delivery, Indefinite Quantity contract, the CSC awarded an order for
shipping support, fielding support and system engineering and training support needed
to maintain Single Shelter Switches, Joint Network Nodes and Base Band Nodes. The
order was awarded at a $536,585 Not To Exceed price proposed by the contractor,
subject to renegotiation after the CSC provides a more detailed and defined scope of
work with a Request for Proposal. The order document, dated September 10, 2004,
stated that the contractor would submit a proposal no later than October 26, 2004, at
which time the NTE cost would be renegotiated. As of March 22, 2005, this still had not
occurred.




                                         II-2
Inadequate Remediation Progress Concerning Existing Orders With Prior Deficiencies
While discussions had been underway between the client agency, CSC officials and
Regional Counsel, no firm remediation plan was in place to address audit findings
covering an existing order related to the relocation of the client from leased space. One
finding involved the CSC’s use of an incorrect IGCE to determine the price
reasonableness of a $32 million Video Conferencing Seat Management contract line
item. After the conclusion of fieldwork, the CSC issued a modification to extend the
period of performance until June 15, 2005, with the intention of turning future contract
actions over to the client agency from that date on forward.

We determined that the CSC had not yet incorporated revised invoicing provisions into
an existing order for a Secure Wireless LAN project. We reviewed recent invoices and
found that they still lacked basic information needed to evaluate billed charges.


Conclusion

While not fully compliant, we found that the Northeast and Caribbean Region CSC has
made significant progress in implementing controls to ensure compliance with
procurement regulations. The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and has enhanced regional controls, while improving
its overall contracting practices. However, we did find procurement compliance
deficiencies in 2 new orders, with no identified potential financial impact, and 2 existing
orders, with prior deficiencies, had inadequate remediation progress. As stated in the
January 2004 report on the FTS CSCs, we believe that steps to remedy the CSC
procurement problems require a comprehensive, broad-based strategy that focuses on
the structure, operations and mission of FTS, as well as the control environment.
Based on the comprehensive recommendations contained in that report, no further
overall recommendations are deemed necessary at this time.


Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS Regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. In her May 5, 2005 response, included as
an Attachment to this report, the Regional Administrator generally agreed with the audit
findings, with the exception of Task Order 02FM214555. The Region was not in
complete agreement with our concern that the IGCE for that order was reflective of past
audit findings that the CSC frequently incorporated client estimates into the JFA, without
establishing the validity of the amounts. The response stated that the Contracting
Officer did not solely rely on the client submitted quotes and used other price analysis
techniques for purposes of determining price reasonableness. The audit report had
acknowledged that the Contracting Officer’s price reasonableness determination took
into consideration similar procurements by another CSC. Our concern over the IGCE



                                           II-3
II-4
                      ATTACHMENT 1
MANAGEMENT RESPONSE




      II-A-1
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       II-A-2
            REVIEW OF
 FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER CONTROLS
    AND TESTING OF CONTROLS
       MID-ATLANTIC REGION
REPORT NUMBER A050009/T/3/Z05016

          MAY 18, 2005




                III
BLANK PAGE
                               REVIEW OF
                    FEDERAL TECHNOLOGY SERVICE’S
                   CLIENT SUPPORT CENTER CONTROLS
                       AND TESTING OF CONTROLS
                          MID-ATLANTIC REGION
                   REPORT NUMBER A050009/T/3/Z05016

                                MAY 18, 2005


                            TABLE OF CONTENTS

                                                                        Page

OBJECTIVE, SCOPE, AND METHODOLOGY                                        III-1

RESULTS OF AUDIT                                                         III-2

Procurement Compliance Deficiency with No Potential Financial Impact     III-2

Other Procurement Compliance Deficiency                                  III-2

Inadequate Remediation Progress for Existing Orders                      III-2

CONCLUSION                                                               III-3

MANAGEMENT COMMENTS                                                      III-3

INTERNAL CONTROLS                                                        III-3

MANAGEMENT RESPONSE                                                    III-A-1




                                          i
BLANK PAGE
DATE:       May 18, 2005

REPLY TO
ATTN OF: Mid-Atlantic Region Field Audit Office (JA-3)

SUBJECT: Review of Federal Technology Service’s Client Support Center
         Controls and Testing of Controls – Mid-Atlantic Region
         Report Number A050009/T/3/Z05016

TO:         Jon R. Kvistad
            Acting Regional Administrator (3A)
            Barbara L. Shelton
            Acting Commissioner, Federal Technology Service (T)

This report presents the results of the Office of Inspector General’s review of the
Federal Technology Service (FTS) Client Support Center (CSC) in the Mid-Atlantic
Region (Region 3). The Ronald W. Reagan National Defense Authorization Act for
Fiscal Year 2005 (Public Law 108-375) directed the Inspectors General of the General
Services Administration (GSA OIG) and the Department of Defense (DOD OIG) to
jointly perform a review of each FTS CSC and determine whether each CSC is
compliant, not compliant, or not compliant but making significant progress, with Defense
procurement requirements.

Objectives, Scope and Methodology

To review the adequacy of policies, procedures, and internal controls in each CSC, we
analyzed a random sample of procurement actions executed between August 1, 2004
through October 31, 2004. We also analyzed a judgmental sample of existing orders
and the steps taken to remediate any past problems in these existing orders. For the
Mid-Atlantic CSC, our sample included nine new awards and two existing orders, valued
at $4.7 million and $40.5 million, respectively. The audit was conducted between
October 2004 and March 2005, in accordance with generally accepted Government
auditing standards.




                                          III-1
Results of Audit

We determined the Region 3 CSC to be not compliant but making significant progress.
The Region has implemented national controls identified in the Administrator’s “Get it
Right” Plan, and has improved its overall contracting practices, compared with our past
audit findings. For example, we found all orders to be in compliance with the
requirements of Section 803 of the National Defense Authorization Act for Fiscal Year
2002. However, we did find that the nine new orders had a common procurement
compliance deficiency that does not represent a potential financial impact. We also
identified one order that involved a non-Information Technology (IT) procurement
through the IT fund. Lastly, in our review of existing orders, we found the remediation
progress inadequate to address deficiencies found in our prior review. As directed in
the Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,
because the CSC is not fully compliant, we are required to perform a subsequent audit
of CSC contracting practices by March 2006 to determine whether the CSC has
become compliant.

Procurement Compliance Deficiency with No Potential Financial Impact. Our review of
the nine new orders determined that none contained an Interagency Agreement. This
situation resulted from guidance contained in a memo issued by the FTS Central Office
and the GSA Chief Financial Officer that may not have provided sufficient clarification
regarding what was required. This conflict was recognized and taken into consideration
when evaluating these orders. The Mid-Atlantic CSC’s position is that it complied with
the guidance via the use of the customer agency’s funding document combined with
FTS’ acceptance of that funding. However, while this documentation represents a
validly recorded obligation, it does not meet the requirements of a reimbursable
agreement as outlined in the FTS Central Office guidance. Reimbursable agreements
must include a clear, concise statement identifying the requesting agency’s specific
need and clearly establishing the financial arrangements between the requesting
agency and FTS. The reimbursable agreement provides written documentation to
ensure there is a formal offer and acceptance between the federal agency and FTS.

Other Procurement Compliance Deficiency. We identified one order, valued at
approximately $295,000, which involved the use of the IT fund for the procurement of
tow banners (used in target practice for fighter pilots). We determined that these
banners were not IT-related. Therefore, the IT fund should not have been used for the
funding of this procurement.

Inadequate Remediation Progress for Existing Orders. Our review of two existing
orders, which were cited for deficiencies in our initial report, found the remediation
actions to be inadequate.

   •   A $17 million schedule order for operations support, in our initial report, was cited
       for the lack of (1) an Acquisition Plan and (2) FTS oversight of contractor billings.
       Our review determined no additional analysis was conducted to ensure the
       appropriateness of the procurement, in light of the absence of an Acquisition



                                           III-2
       Plan. Additionally, while the Region 3 CSC is currently involved in developing a
       process for ensuring the accuracy of contractor billings, no process has yet been
       implemented. CSC officials stated that this task order is due to terminate as of
       April 30, 2005.

   •   A $24 million order to provide life-cycle support for an information system, in our
       initial report, was cited for the lack of (1) a Determinations and Findings
       document and (2) FTS oversight of contractor billings. While the Region 3 CSC
       is currently involved in developing a process for ensuring the accuracy of
       contractor billings, we determined that no formal process has yet been
       implemented. CSC officials stated that this task order is due to terminate as of
       April 30, 2005.


Conclusion

While not fully compliant, we found that the Mid-Atlantic Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.     The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and improved its overall contracting practices.
However, we did find procurement compliance deficiencies in nine new orders. We also
identified one order that utilized the IT Fund for the procurement of a non-IT commodity.
Lastly, we determined the remediation actions on two existing orders were inadequate.
As stated in our January 2004 report on the FTS CSCs, we believe that steps to remedy
the CSC procurement problems require a comprehensive, broad-based strategy that
focuses on the structure, operations and mission of FTS as well as the control
environment. Based on the comprehensive recommendations contained in that report,
no further overall recommendations are deemed necessary at this time.

Management Comments

In his response, the Acting Regional Administrator acknowledged the issues raised in
the draft report and submitted some remedial actions taken by the FTS Mid-Atlantic
Region designed to address those issues. Management’s response is included in its
entirety as Attachment 1 to this report.

Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the Federal Acquisition Regulations
and the terms and conditions of the contracts utilized. While we have seen substantial
improvements in internal controls, FTS will need to continue its commitment to the “Get
It Right” initiatives and to implementation of effective controls over procurement
processes to ensure full compliance by March 2006.




                                           III-3
If you have any questions regarding the report, please contact Stephen J. Ehinger, or
me, at (215) 446-4840.




James M. Corcoran
Audit Manager
Mid-Atlantic Region

Attachments




                                        III-4
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       III-A-1
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       III-A-2
             REVIEW OF
  FEDERAL TECHNOLOGY SERVICE’S
      CLIENT SUPPORT CENTER
CONTROLS AND TESTING OF CONTROLS
    SOUTHEAST SUNBELT REGION
 REPORT NUMBER A050009/T/5/Z05021

           MAY 18, 2005




                IV
BLANK PAGE
                               REVIEW OF
                    FEDERAL TECHNOLOGY SERVICE’S
                        CLIENT SUPPORT CENTER
                  CONTROLS AND TESTING OF CONTROLS
                      SOUTHEAST SUNBELT REGION
                   REPORT NUMBER A050009/T/5/Z05021

                                MAY 18, 2005

                            TABLE OF CONTENTS

                                                                     Page

OBJECTIVE, SCOPE, AND METHODOLOGY                                     IV-1

RESULTS OF AUDIT                                                      IV-1

Procurement Compliance Deficiency with Potential Financial Impact     IV-2

Other Procurement Compliance Deficiencies                             IV-2

Existing Order Procurement Deficiencies                               IV-2

CONCLUSION                                                            IV-3

MANAGEMENT COMMENTS                                                   IV-3

INTERNAL CONTROLS                                                     IV-3

MANAGEMENT RESPONSE                                                 IV-A-1




                                          i
BLANK PAGE
IV-1
compliance deficiencies, including one with potential financial impact. In our review of
existing orders, we found that three orders had prior deficiencies and inadequate
remediation progress. As directed in the Ronald W. Reagan National Defense
Authorization Act for Fiscal Year 2005, because the CSC is not fully compliant, we are
required to perform a subsequent audit of CSC contracting practices by March 2006 to
determine whether the CSC has become compliant.

Procurement Compliance Deficiency with Potential Financial Impact. We identified a
$4.3 million schedule order for services that was negotiated as a time and materials
(T&M) contract. Federal Acquisition Regulation (FAR) 16.601 states a “time and
materials contract may be used only when it is not possible at the time of placing the
contract to estimate accurately the extent or, duration of the work, or to anticipate costs
with any reasonable degree of confidence.” The order also included four option years
which showed that estimated labor classifications and labor hours remained consistent
from year to year. Repetitive or redundant contract requirements should be awarded
under a firm fixed price type of contract, which is preferred by the FAR. Also, the
interagency agreement for this task order was prepared after the award.

Other Procurement Compliance Deficiencies. We identified five new orders that had
other various procurement compliance deficiencies.

    Two commodity orders for $217,000 and $270,000 did not have Interagency
    Agreements.

    Three service orders for $5.3 million, $919,000 and $387,000 did not have quality
    assurance surveillance plans (QASP’s). FAR 37.602-2 states that “Agencies shall
    develop quality assurance surveillance plans when acquiring services.” QASP’s
    define the contractor oversight functions performed by the Government.

Existing Order Procurement Deficiencies. We identified three existing orders that had
deficiencies. A remediation plan for the orders was not prepared.

•   A $46.1 million task order for services had inadequate documentation in support of
    the best value determination for equipment purchased. In addition, the order did not
    have a ceiling amount as required by FAR 16.6. There were additional file
    documentation issues and a QASP was not available for this order.

•   A $20.5 million task order for services was awarded with inadequate competition and
    a lack of support for the best value determination. The task order was procured sole
    source as a logical follow-on to a prior sole source contract. However, FTS could
    not provide documentation supporting the original sole source procurement. The
    contractor proposed a firm fixed price, however, FTS awarded a T&M order. The
    task order also exhibited large cost growth ($1.5 million to $20 million) and there was
    no QASP.




                                           IV-2
•   A $131.6 million task order for services was awarded on a T&M basis. However, the
    labor costs remained fairly consistent from year to year. Repetitive type contract
    requirements are conducive to the more favorable firm fixed price type of
    contracting. Although the task order called for significant labor expenditures, a
    QASP was not available. We also determined that some of the contractor’s billing
    rates were not found in the underlying Schedule contract.


Conclusion

While not fully compliant, we found that the Southeast Sunbelt Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.     The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and improved its overall contracting practices. We
found that all orders reviewed were awarded in accordance with Section 803 of the
National Defense Authorization Act for Fiscal Year 2002. However, we did find
procurement compliance deficiencies in six new orders, including one with potential
financial impact, and three existing orders that had prior deficiencies with inadequate
remediation. As stated in our January 2004, report on the FTS CSCs, we believe that
steps to remedy the CSC procurement problems require a comprehensive, broad-based
strategy that focuses on the structure, operations and mission of FTS as well as the
control environment. Based on the comprehensive recommendations contained in that
report, no further overall recommendations are deemed necessary at this time.


Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis, as appropriate. We also provided a
draft of this letter report to regional officials. In his response, the Acting Regional
Administrator acknowledged the issues raised in the draft report and submitted a
remediation plan of action. Management’s response is included in its entirety as
Attachment 1 to this report.


Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the FAR and the terms and conditions
of the contracts utilized. While we have seen substantial improvements in internal
controls, FTS will need to continue their commitment to the “Get It Right” Plan and to




                                         IV-3
IV-4
P. 1 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE




                   IV-A-1
P. 2 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE




                   IV-A-2
P. 3 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE




                   IV-A-3
P. 4 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE




                   IV-A-4
P. 5 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE




                   IV-A-5
P. 6 OF 6                         ATTACHMENT 1
            MANAGEMENT RESPONSE




                   IV-A-6
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
          GREAT LAKES REGION
    REPORT NUMBER A050009/T/5/Z05023

             MAY 18, 2005




                  V
BLANK PAGE
                               REVIEW OF
                     FEDERAL TECHNOLOGY SERVICE’S
                    CLIENT SUPPORT CENTER CONTROLS
                        AND TESTING OF CONTROLS
                           GREAT LAKES REGION
                    REPORT NUMBER A050009/T/5/Z05023

                                 MAY 18, 2005


                              TABLE OF CONTENTS

                                                                          Page

OBJECTIVE, SCOPE, AND METHODOLOGY                                         V-1

RESULTS OF AUDIT                                                          V-1

     Procurement Compliance Deficiency with Potential Financial Impact    V-2

     Other Procurement Compliance Deficiencies                            V-2

     Inadequate Remediation                                               V-2

     Existing Order Procurement Deficiency                                V-2

CONCLUSION                                                                V-2

MANAGEMENT COMMENTS                                                       V-3

INTERNAL CONTROLS                                                         V-3

MANAGEMENT RESPONSE                                                      V-A-1




                                        i
BLANK PAGE
V-1
compliance deficiencies, including one with potential financial impact. In our review of
existing orders, we found that one order with prior deficiencies did not have adequate
remediation. In addition, this order had been inappropriately modified without price
justification to add work beyond the original scope. As directed in the Ronald W.
Reagan National Defense Authorization Act for Fiscal Year 2005, because the CSC is
not fully compliant, we are required to perform a subsequent audit of CSC contracting
practices by March 2006, to determine whether the CSC has become compliant.

Procurement Compliance Deficiency with Potential Financial Impact. We identified a
$54,965 schedule order for analytical support that was awarded without a best value
determination or support for billings analysis as required by Federal Acquisition
Regulation (FAR) 8.404. The statement of work required the contractor to provide
technical and economic analysis and technical expertise for the client agency. The
Project Manager for this task estimated the labor rates based on historical knowledge;
however, no independent government estimate or pricing analysis was prepared for this
order.

Other Procurement Compliance Deficiencies. We identified one order that had a
procurement compliance deficiency with no potential financial impact. The $695,400
order for assistance to implement a new web-based Commercial Asset Viability System
had no quality assurance surveillance plan (QASP) as of the date of award. In
accordance with FAR 46.401, a QASP should be prepared in conjunction with the
statement of work and incorporated into the task order file to assure that the
Government receives the services that are paid for. The CSC subsequently added the
QASP to the file at the kickoff meeting with the client.

Inadequate Remediation. As part of our review of current modifications to existing
orders, we reviewed an $11.2 million order awarded in September 2002, to support the
development and maintenance of planning documents in support of client
transformation initiatives. Our review of this order identified numerous deficiencies,
including an unjustified sole source award, inadequate best value determination, no
additional discount requested, or received (although the order was over the maximum
order threshold) and, inappropriate use of the IT Fund. The CSC had performed no
remediation on this task order as of the date of our review.

Existing Order Procurement Deficiency. We identified an inappropriate $4.1 million
modification to the existing $11.2 million schedule order noted above. The additional
work under the modification was not within the original scope of work, and the CSC did
not perform any pricing analysis.

Conclusion

While not fully compliant, we found that the Great Lakes Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.




                                           V-2
V-3
BLANK PAGE
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       V-A-1
BLANK PAGE
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
           HEARTLAND REGION
    REPORT NUMBER A050009/T/6/Z05018

             MAY 18, 2005




                 VI
BLANK PAGE
               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER
                 CONTROLS AND TESTING OF CONTROLS
                          HEARTLAND REGION
                   REPORT NUMBER A050009/T/6/Z05018

                                  MAY 18, 2005

                             TABLE OF CONTENTS

                                                                          Page

OBJECTIVE, SCOPE, AND METHODOLOGY                                          VI-1

RESULTS OF AUDIT                                                           VI-1

     Section 803 Non-Compliance                                            VI-2

     Procurement Compliance Deficiency with Potential Financial Impact     VI-2

     Other Procurement Compliance Deficiencies                             VI-2

     Existing Order Procurement Deficiency                                 VI-3

CONCLUSION                                                                 VI-3

MANAGEMENT COMMENTS                                                        VI-3

INTERNAL CONTROLS                                                          VI-4

MANAGEMENT RESPONSE                                                      VI-A-1




                                        i
BLANK PAGE
VI-1
audit findings. For example, we found only one minor instance of non-compliance with
the competition requirements of Section 803 of the National Defense Authorization Act
for Fiscal Year 2002. However, we did find 6 new orders that had procurement
compliance deficiencies, including one with potential financial impact. In our review of
existing orders, we found that the CSC inappropriately modified one order to include out
of scope work. As directed in the Ronald W. Reagan National Defense Authorization
Act for Fiscal Year 2005, because the CSC is not fully compliant, we are required to
perform a subsequent audit of CSC contracting practices by March 2006 to determine
whether the CSC has become compliant.

Section 803 Non-compliance. The CSC awarded one new order without following the
competition requirements of Section 803, which requires ordering agencies to obtain a
minimum of three offers for Department of Defense orders for professional services
expected to exceed $100,000 that are placed under multiple award contracts, including
Federal Supply Service (FSS) schedule contracts. This $140,000 task order involved
development of an online training course and was related to a prior task order that the
CSC justified as a sole source award under Federal Acquisition Regulation (FAR)
5.202, acceptance of an unsolicited research proposal that demonstrates a unique and
innovative concept. However, the sole source procurement for this task order was not
adequately justified.

Procurement Compliance Deficiency with Potential Financial Impact. We identified a
$3.2 million schedule order for development and installation of software that the CSC
awarded without requesting discounts as required by FAR 8.4 when orders exceed the
maximum order threshold (MOT) under the schedule contract. FTS does include a
provision in all schedule order statements, regardless of expected dollar value, stating
that prices proposed cannot exceed schedule prices. However, the FAR requires, for
higher dollar value purchases over the MOT, that discounts be specifically requested
given the larger dollar value of the purchase. This order was well above the MOT of
$500,000.

Other Procurement Compliance Deficiencies. We identified four orders that had other
various procurement compliance deficiencies.

   A $2.7 million schedule order for technical and management support did not undergo
   adequate best value determination.             The CSC complied with competition
   requirements and received one proposal but did not analyze the proposed labor mix
   or level of effort in its evaluation of price.

   A $668,000 sole-source schedule order that the CSC awarded as a “bridge”
   contract to allow time to properly re-compete a requirement for local area network
   technical support was awarded as a time and materials contract without adequate
   analysis of labor mix and level of effort in the evaluation of price.

   A $4.9 million schedule order for hazardous material systems support lacked
   documentation to justify actions taken to obtain a revised cost proposal that


                                         VI-2
   increased the price. Only one vendor submitted an offer; a $2.1 million initial bid
   compared to the Independent Government Estimate (IGE) of $4.8 million. After the
   initial bid, FTS requested the sole bidder to provide a second cost proposal because
   the client believed the first bid did not fully address all of the requirements. The
   vendor’s revised cost proposal increased to $4.9 million, although the vendor’s
   technical proposal remained the same. FTS advised that they are planning to re-
   compete the task order after the completion of the base year, which should limit any
   possible financial impact.

   A $1.2 million schedule order for consultant and support services did not include
   adequate evaluation of labor mix and level of effort in the evaluation of pricing.
   Region 6 FTS based the evaluation of labor mix and level of effort on an IGE.
   However, we could not conclude that the IGE was a sufficient independent estimate
   because it was nearly identical to the proposal. FTS stated that this occurred due to
   previous experience with the client and the work.

Existing Order Procurement Deficiency. We identified an inappropriate $4.3 million
modification to an existing $31.1 million schedule order for onsite technical, functional,
and analytical support. The additional work under the modification was not within the
original statement of work, and the CSC did not perform a pricing analysis for the
additional work. CSC officials advised that they planned to terminate the task in March
2005, however, as of the date of this report, this has not occurred.


Conclusion

While not fully compliant, we found that the Heartland CSC has made significant
progress in implementing controls to ensure compliance with procurement regulations.
The CSC has implemented national controls identified in the Administrator’s “Get It
Right” Plan and improved its overall contracting practices. However, we did find
procurement compliance deficiencies in 6 new orders, including 1 with potential financial
impact, and 1 existing order that was improperly modified to include out of scope work.
As stated in our January 2004 report on the FTS CSCs, we believe that steps to remedy
the CSC procurement problems require a comprehensive, broad-based strategy that
focuses on the structure, operations and mission of FTS as well as the control
environment. Based on the comprehensive recommendations contained in that report,
no further overall recommendations are deemed necessary at this time.


Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. On April 26, 2005, the Heartland Region
Regional Administrator responded to this report, taking no exception to the report as


                                          VI-3
VI-4
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       VI-A-1
BLANK PAGE
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
 CLIENT SUPPORT CENTER CONTROLS AND
          TESTING OF CONTROLS
      GREATER SOUTHWEST REGION
    REPORT NUMBER A050009/T/7/Z05015

             MAY 18, 2005




                 VII
BLANK PAGE
               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                CLIENT SUPPORT CENTER CONTROLS AND
                         TESTING OF CONTROLS
                     GREATER SOUTHWEST REGION
                   REPORT NUMBER A050009/T/7/Z05015

                                    MAY 18, 2005

                                 TABLE OF CONTENTS

                                                                           Page

OBJECTIVE, SCOPE, AND METHODOLOGY                                          VII-1

RESULTS OF AUDIT                                                           VII-2

     Procurement Compliance Deficiency with Potential Financial Impact     VII-2

     Significant Funding Issue                                             VII-2

CONCLUSION                                                                 VII-2

MANAGEMENT COMMENTS                                                        VII-3

INTERNAL CONTROLS                                                          VII-3

MANAGEMENT RESPONSE                                                      VII-A-1




                                              i
BLANK PAGE
VII-1
Results of Audit

We determined the Region 7 CSC to be not compliant but making progress and
considered close to compliant. The Region 7 CSC has implemented national controls
identified in the Administrator’s “Get it Right” initiative, and has improved its overall
contracting practices, compared to our past audit findings. We found no instances of
non-compliance with the competition requirements of Section 803 of the National
Defense Authorization Act for Fiscal Year 2002. Furthermore, we found the Region 7
CSC had taken appropriate steps to remediate past problems. However, we found a
new order that had a procurement compliance deficiency with limited potential financial
impact. In addition, as a result of a DOD OIG referral, we found one task order in which
the Region 7 CSC exercised an option early for severable services with prior year
funds. As directed in the Ronald W. Reagan National Defense Authorization Act for
Fiscal Year 2005, because the CSC is not fully compliant, we are required to perform a
subsequent audit of CSC contracting practices by March 2006 to determine whether the
CSC has become compliant.

Procurement Compliance Deficiency with Limited Potential Financial Impact We
identified a schedule order for $598,041 for a desktop trainer that was awarded without
requesting discounts as required by Federal Acquisition Regulation (FAR) Part 8.4
when orders exceed the maximum order threshold (MOT) of the schedule contract. The
FAR requires, for higher dollar value purchases over the MOT, that discounts be
specifically requested given the larger dollar value of the purchase. Because the dollar
value of the task order was only $598,000, the potential financial impact was not
significant.

Significant Funding Issue The Region 7 CSC issued a modification in September 2004
for $1.6 million to exercise an option year, 4 months early, to utilize FY 2002 and 2003
residual funds. According to contract documentation and regional officials, the prior
year funding was residual funding from several other task orders for other projects and
was at risk of being lost due to changes in GSA’s long standing practices governing the
use of the Information Technology (IT) Fund. The use of prior year funding from other
task orders to fund a task order in FY 2004 for severable services to be performed in FY
2005 was inappropriate, although we recognized that various guidance issued to CSC
staff might not have been clear.

Conclusion

While not fully compliant, we found that the Region 7 CSC has made significant
progress in implementing controls to ensure compliance with procurement regulations.
The CSC has implemented national controls identified in the Administrator’s “Get It
Right” initiative and improved its overall contracting practices. As stated in the January
2004 report on the FTS CSCs, we believe that steps to remedy the CSC procurement
problems require a comprehensive, broad-based strategy that focuses on the structure,
operations, and mission of the CSCs as well as the control environment. Based on the



                                          VII-2
VII-3
BLANK PAGE
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       VII-A-1
BLANK PAGE
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
        ROCKY MOUNTAIN REGION
    REPORT NUMBER A050009/T/6/Z05017

             MAY 18, 2005




                VIII
BLANK PAGE
               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER
                 CONTROLS AND TESTING OF CONTROLS
                       ROCKY MOUNTAIN REGION
                   REPORT NUMBER A050009/T/6/Z05017

                                 MAY 18, 2005

                             TABLE OF CONTENTS

                                                                            Page

OBJECTIVE, SCOPE, AND METHODOLOGY                                          VIII-1

RESULTS OF AUDIT                                                           VIII-1

     Procurement Compliance Deficiency with Potential Financial Impact     VIII-2

     Other Procurement Compliance Deficiencies                             VIII-2

     Existing Orders Procurement Deficiencies                              VIII-2

CONCLUSION                                                                 VIII-3

MANAGEMENT COMMENTS                                                        VIII-3

INTERNAL CONTROLS                                                          VIII-3

MANAGEMENT RESPONSE                                                      VIII-A-1




                                                i
BLANK PAGE
VIII-1
Right” Plan, and has improved its overall contracting practices, compared with our past
audit results. We found no instances of non-compliance with the competition
requirements of Section 803 of the National Defense Authorization Act for Fiscal Year
2002. However, we did find 4 new orders that had procurement compliance
deficiencies, including one order with limited potential financial impact. Our review of
the two existing orders indicated that both orders had prior deficiencies and the CSC
had not yet defined remediation plans. In addition, the CSC modified one existing order
during the audit period to include a revised statement of work (SOW) with no
explanation. As directed in the Ronald W. Reagan National Defense Authorization Act
for Fiscal Year 2005, because the CSC is not fully compliant, we are required to perform
a subsequent audit of CSC contracting practices by March 2006 to determine whether
the CSC has become compliant.

Procurement Compliance Deficiency with Limited Potential Financial Impact. We
identified a $205,000 schedule order for hardware and software systems support that
only had one bid and was awarded without support for best value determination. There
was a large difference between the labor hours proposed and those listed on the
Independent Government Cost Estimate, and neither FTS nor the client addressed the
level of effort in their evaluations of the proposal to establish the reasonableness of the
total price for labor.

Other Procurement Compliance Deficiencies. We identified three orders that had
procurement compliance deficiencies without potential financial impact.

   •   A $252,000 schedule order for installation of audio-visual systems was not
       evaluated in accordance with the SOW evaluation criteria, which was past
       performance and cost. File documentation indicates that the evaluation was
       based on cost, technical approach, and past performance. There is no financial
       impact because FTS selected the lowest priced proposal.

   •   A $1.6 million schedule order for management systems support had option years
       identified in the SOW and the proposal but were not identified on the GSA Form
       300. The GSA Form 300 did not contain detail of option years, period of
       performance and ceiling amount.

   •   A $621,000 schedule order for waste management services and software
       support did not have a Memorandum of Understanding in the file nor was the
       ceiling amount identified on the GSA Form 300.

Existing Orders Procurement Deficiencies. Both existing orders had prior deficiencies;
however, the CSC did not have defined remediation plans. In addition, the CSC
modified one of the existing orders to include a revised SOW with no explanation.

   •   A $74 million Answer contract order for enterprise network and
       telecommunications requirements and programs support had prior procurement
       deficiencies including inadequate best value determination, no justification for


                                          VIII-2
       use of a time-and-materials type contract, no ceiling amount, improper execution
       of contract options, and inadequate contract oversight. During the sample
       period, the CSC modified this order to revise the SOW. However, FTS was not
       able to provide adequate support for why the SOW was revised. FTS stated that
       this order was “dead” effective February 28, 2005, however, FTS did not provide
       information relative to plans for continuing the work once this task ended (e.g., a
       plan for re-competition).

   •   A $35.3 million Millennia contract order for operational support had prior
       procurement deficiencies including an inadequate best value determination,
       improper execution of contract options, and inadequate contract oversight. FTS
       did not provide supporting documentation indicating adequate remediation
       progress for this order.


Conclusion

While not fully compliant, we found that the Region 8 CSC has made significant
progress in implementing controls to ensure compliance with procurement
requirements.       The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and improved its overall contracting practices.
However, we did find procurement compliance deficiencies in 4 new orders, including 1
with limited potential financial impact, and 2 existing orders that did not have defined
remediation plans and one existing order had been modified to include a revised SOW
with no explanation. As stated in our January 2004 report on the FTS CSCs, we believe
that steps to remedy the CSC procurement problems require a comprehensive, broad-
based strategy that focuses on the structure, operations and mission of FTS as well as
the control environment. Based on the comprehensive recommendations contained in
that report, no further overall recommendations are deemed necessary at this time.

Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. On May 9, 2005, the Rocky Mountain
Region Regional Administrator responded to this report, taking no exception to the
report as prepared. Management’s response is included in its entirety as Attachment 1
to this report.

Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the Federal Acquisition Regulation
and the terms and conditions of the contracts utilized. While we have seen substantial


                                          VIII-3
VIII-4
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       VIII-A-1
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       VIII-A-2
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       VIII-A-3
                      ATTACHMENT 1
MANAGEMENT RESPONSE




       VIII-A-4
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
         PACIFIC RIM REGION
   REPORT NUMBER A050009/T/9/Z05020

             MAY 18, 2005




                  IX
BLANK PAGE
               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER
                 CONTROLS AND TESTING OF CONTROLS
                          PACIFIC RIM REGION
                   REPORT NUMBER A050009/T/9/Z05020

                                    MAY 18, 2005

                                 TABLE OF CONTENTS

                                                         Page

OBJECTIVE, SCOPE, AND METHODOLOGY                         IX-1

RESULTS OF AUDIT                                          IX-2

     Procurement Compliance Deficiencies                  IX-2

     Existing Orders Procurement Deficiencies             IX-2

     Significant Funding Issue                            IX-3

CONCLUSION                                                IX-3

MANAGEMENT COMMENTS                                       IX-3

OFFICE OF INSPECTOR GENERAL’S RESPONSE                    IX-4

INTERNAL CONTROLS                                         IX-4

MANAGEMENT RESPONSE                                     IX-A-1




                                         i
BLANK PAGE
IX-1
Results of Audit

We determined the Region 9 CSC to be not compliant but making significant progress.
Region 9 has implemented national controls identified in the Administrator’s Get It Right
Plan, and has improved its overall contracting practices, compared with our past audit
findings. For example, we did not find any instances of non-compliance with the
competition requirements of Section 803 of the National Defense Authorization Act for
FY 2002. While we did find seven new orders that had procurement compliance
deficiencies, none of the deficiencies resulted in potential financial impact. Our review
of existing orders revealed three orders with prior procurement deficiencies. The CSC
had not made adequate remediation progress for two of the three existing orders with
prior deficiencies. For the third order, FTS issued a modification with inadequate price
support. In addition, the DOD OIG identified a significant funding issue for one task
order.

As directed by Public Law 108-375, because the CSC is not fully compliant, we are
required to perform a subsequent audit of CSC contracting practices by March 2006 to
determine whether the CSC has become compliant.

Procurement Compliance Deficiencies

We identified seven new orders with various procurement compliance deficiencies, of
which none had a potential financial impact. Examples included:

   •   A $855,327 8(a) set-aside order for servers and computer component equipment
       and a $487,150 competitively bid award for commodities had no acquisition
       plans.

   •   A $825,397 GSA Schedule 70 order for computer components did not include a
       signed Memorandum of Understanding between GSA and the client agency;

Existing Orders Procurement Deficiencies

For three task orders, we determined that remediation efforts and/or price support were
inadequate. The first order with a potential value of $250 million for the upgrade of
information technology infrastructure had problems at award that included inadequate
price support and no legal review. In the current review period, we noted inadequate
price support for a $1.9 million modification to this order. The second order for $58
million was to provide call center support, which constituted an inappropriate use of the
IT fund. In addition, an inadequate best value determination had been made. Further,
there was inadequate price support for the other direct costs (ODCs) associated with
this order, which comprised 36 percent of the $58 million total order value. Also, the
CSC had not documented a justification for use of a time-and-materials type contract.
At the time of our review the CSC had not initiated remediation efforts for these task
orders.




                                           IX-2
For the third order with prior deficiencies, the CSC had remediation plans in place, but
the plans had not yet been fully implemented at the time of our review. Deficiencies
included: (i) no support for fair and reasonable pricing for the ODCs originally proposed
(76 percent of the total $158 million task order value); (ii) no justification for use of a
Time and Materials task order, (iii) an inadequate Statement of Work; (iv) use of
incorrect contract vehicle; (v) improper period of performance extensions; and (vi) no
quality assurance plans. In addition, the task order did not have price support for the
two of the three modifications issued during our review period.

Significant Funding Issue

The DOD OIG identified a significant funding issue associated with a $213,000 task
order for printer supplies purchased at the end of FY 2004. The DOD OIG determined
that there was no bonafide need. The procurement was made with FY 2004 funds in FY
2004, but the actual supplies were needed in FY 2005. Therefore, FY 2005 funds
should have been used for this procurement.

Conclusion

While not fully compliant, we found that the Pacific Rim Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations. The CSC has implemented national controls identified in the Adminis-
trator’s Get It Right Plan and improved its overall contracting practices. Although we
found procurement compliance deficiencies in seven new orders, none of the
deficiencies resulted in potential financial impact. We also found problems with three
existing orders, including two with prior procurement deficiencies where the CSC had
not made adequate remediation progress. In addition, we noted that the CSC did not
have pricing support for modification(s) processed during the review period for two of
the three existing task orders.

As stated in the January 2004 OIG report on the FTS CSCs, we believe that steps to
remedy the CSC procurement problems require a comprehensive, broad-based strategy
that focuses on the structure, operations and mission of FTS as well as the control
environment. Based on the comprehensive recommendations contained in that report,
no further overall recommendations are deemed necessary at this time.

Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. With the exception of one finding, the
Regional Administrator was in general agreement with the findings of the report in his
response dated May 10, 2005.




                                           IX-3
IX-4
                      ATTACHMENT 1



MANAGEMENT RESPONSE




       IX-A-1
BLANK PAGE
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
       NORTHWEST/ARCTIC REGION
    REPORT NUMBER A050009/T/9/Z05022

             MAY 18, 2005




                  X
BLANK PAGE
               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER
                 CONTROLS AND TESTING OF CONTROLS
                      NORTHWEST/ARCTIC REGION
                   REPORT NUMBER A050009/T/9/Z05022

                                 MAY 18, 2005

                             TABLE OF CONTENTS

                                                         Page

OBJECTIVE, SCOPE, AND METHODOLOGY                        X-1

RESULTS OF AUDIT                                         X-2

     Procurement Compliance Deficiency with              X-2
       Limited Potential Financial Impact

     Other Procurement Compliance Deficiencies           X-2

     Existing Order Procurement Deficiencies             X-3

CONCLUSION                                               X-3

MANAGEMENT COMMENTS                                      X-4

INTERNAL CONTROLS                                        X-4

MANAGEMENT RESPONSE                                     X-A-1




                                        i
BLANK PAGE
X-1
Results of Audit

We determined the Region 10 CSC to be not compliant but making significant progress.
The Region has implemented national controls identified in the Administrator’s Get It
Right Plan, and has improved its overall contracting practices, compared with our past
audit findings. For example, we did not find any instances of non-compliance with the
competition requirements of Section 803 of the National Defense Authorization Act for
FY 2002. However, we found one new order with procurement compliance deficiencies
with limited potential financial impact, and compliance deficiencies for another new
order but with no financial impact. In our review of existing orders, we found two with
procurement deficiencies for which the CSC had not made adequate remediation
progress.

As directed by Public Law 108-375, because the CSC is not fully compliant, we are
required to perform a subsequent audit of CSC contracting practices by March 2006 to
determine whether the CSC has become compliant.

Procurement Compliance Deficiency with Limited Potential Financial Impact. For a
new, sole-source order valued at $1.25 million and awarded to improve engineering
design process, no discount was requested or received after exceeding the maximum
order threshold (MOT) for the schedule contract. In the pre-negotiation memorandum,
FTS erroneously stated that the contractor offered a discount of 3.48 percent upon
exceeding the MOT. However, the contractor actually indicated that the Federal Supply
Service’s schedule prices had already represented a 3.48 percent discount off its
commercial, non-governmental rates. Because of the erroneous assumption, FTS did
not pursue the discounts as required by procurement regulations.

Other Procurement Compliance Deficiencies. We identified procurement problems with
seven new orders placed against a Blanket Purchase Agreement (ceiling price of $175
million) with Schedule 70 contractors. These seven orders represented $55 million of
the $68 million (or 81 percent) awarded during the sample period to support technical
areas, ranging in scope from the acquisition of unspecified hardware, software, cable
and wiring to user support and help desk operations, training and systems engineering.
Given the size and complexity of the procurement, the Office of General Counsel (OGC)
advised FTS that an imposed one-week deadline was insufficient to complete an
adequate legal review. The legal review, prepared subsequent to award, indicated that
FTS did not provide all pertinent documents such as underlying evaluation documents,
past performance evaluation scorecards, or the proposals themselves. The legal review
also disclosed the following errors associated with the source selection decision: (i) no
source selection plan for evaluating the proposals received in response to the Request




                                          X-2
for Quotation; (ii) no pre-evaluation standard developed; (iii) overall ranking and method
for selecting offerors not clearly described; and (iv) evaluation of price not adequately
addressed. The OGC further noted its concerns regarding the broad scope of the
Blanket Purchase Agreement citing serious risk that due to the procurement’s size,
scope, duration, and limited number of awards, the transaction might be considered
anti-competitive. While no bid protests occurred, documentation did not support that
FTS adequately addressed the OGC concerns.


Existing Order Procurement Deficiencies. For two task orders, we identified procure-
ment deficiencies involving inadequate remediation efforts and improper billings,
respectively. The first order, which supported data center services, has a potential
value of $104 million. Problems at award included: (i) inadequate price support; (ii) no
justification for use of a Time and Materials task order; (iii) no evidence of price
negotiation to obtain discounts; and (iv) significant variances between the Independent
Government Estimate and the vendor’s proposal for the level of effort. FTS had
recognized the prior deficiencies and had begun discussions with the client agency.
However, FTS did not develop a formal remediation plan to clearly demonstrate
management’s commitment and to assure that the necessary steps will be carried out.
The second order, which provided information technology support for counter-
intelligence field activity, totaled $8.3 million.      Performance was completed in
November 2004. However, we determined that nine labor categories that were not
proposed and/or included in the vendor’s base contract were improperly billed for
approximately $600,000. We informed FTS of the improper billing in January 2005, but
as of the completion of our fieldwork, FTS had not yet notified the contractor to resolve
the matter.

Conclusion

While not fully compliant, we found that the Northwest/Arctic Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.     The CSC has implemented national controls identified in the
Administrator’s Get It Right Plan and improved its overall contracting practices.
However, we did find procurement compliance deficiencies in seven new orders without
potential financial impact, and one task with potential financial impact. As stated in the
January 2004 OIG report on the FTS CSCs, we believe that steps to remedy the CSC
procurement problems require a comprehensive, broad-based strategy that focuses on
the structure, operations and mission of FTS as well as the control environment. Based
on the comprehensive recommendations contained in that report, no further overall
recommendations are deemed necessary at this time.




                                           X-3
X-4
                      ATTACHMENT 1


MANAGEMENT RESPONSE




       X-A-1
                      ATTACHMENT 1


MANAGEMENT RESPONSE




       X-A-2
                      ATTACHMENT 1


MANAGEMENT RESPONSE




       X-A-3
                      ATTACHMENT 1


MANAGEMENT RESPONSE




       X-A-4
           REVIEW OF
 FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER CONTROLS
    AND TESTING OF CONTROLS
     NATIONAL CAPITAL REGION
REPORT NUMBER A050009/T/W/Z05013


          MAY 18, 2005




                   XI
BLANK PAGE
                           REVIEW OF
                 FEDERAL TECHNOLOGY SERVICE’S
                CLIENT SUPPORT CENTER CONTROLS
                    AND TESTING OF CONTROLS
                     NATIONAL CAPITAL REGION
                REPORT NUMBER A050009/T/W/Z05013

                              MAY 18, 2005

                         TABLE OF CONTENTS

                                                    Page

OBJECTIVE, SCOPE, AND METHODOLOGY                    XI-1

RESULTS OF AUDIT                                     XI-2

New Procurement Order Compliance Deficiency          XI-2

Existing Order Procurement Deficiency                XI-2

CONCLUSION                                           XI-2

MANAGEMENT COMMENTS                                  XI-3

INTERNAL CONTROLS                                    XI-3

MANAGEMENT RESPONSE                                XI-A-1




                                        i
BLANK PAGE
XI-1
Results of Audit

We determined the National Capital Region CSC to be not compliant but making
progress and considered close to compliant. The Region has implemented national
controls identified in the Administrator’s “Get it Right” Initiative, and has improved its
overall contracting practices, compared with our past audit findings. For example, we
found no instances of improper use of the IT Fund, work being performed outside the
scope of the base contract, or unjustified extensions of periods of performance. We
found no instances of non-compliance with the competition requirements of Section 803
of the National Defense Authorization Act for Fiscal Year 2002. However, as directed in
the Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,
because of the two deficiencies discussed below, the CSC is not fully compliant, and we
will be required to perform a subsequent audit of CSC contracting practices by March
2006 to determine whether the CSC has become compliant.

New Procurement Order Compliance Deficiency. We identified one task order that was
issued without a not to exceed price limitation as required by Federal Acquisition
Regulation 16.601(c) for time & material contracts. This order with a value of $412,794
was issued to design, develop, and implement a database system on a time & materials
basis.

Existing Order Procurement Deficiency. We identified one task order with an
incomplete remediation strategy. The task order encompassed the requirements
definition, implementation and production (phases I, II and III respectively) of a medical
bill processing system, with operations to be accomplished under a series of one-year
options likely to exceed 95 percent of the total task order value. The initial solicitation
required a fully priced proposal for phases I and II, but simply a unit price rate for phase
III. The documented price analysis did not include the production phase; it covered only
the development and implementation phases. There was no evidence that the cost of
production was considered as an award factor. Subsequently, the vendor has
submitted a new proposal dated 12/17/04 to cover current fiscal year operations already
in process. As of the end of audit fieldwork, price analysis of the new proposal
remained outstanding, and a viable acquisition plan for the remaining out years has yet
to emerge.

Conclusion

While not fully compliant, we found that the National Capital Region CSC has made
significant progress and is considered close to compliant in implementing controls to
ensure compliance with procurement regulations. The CSC has implemented national
controls identified in the Administrator’s “Get It Right” Initiative and improved its overall
contracting practices. However, we did find a procurement compliance deficiency in
one new order, and an incomplete remediation strategy for an existing order that did not
address pricing concerns.




                                            XI-2
XI-3
BLANK PAGE
         ATTACHMENT 1




XI-A-1
BLANK PAGE
REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
    EUROPEAN CLIENT SUPPORT CENTER
    REPORT NUMBER A050009/T/6/Z05019

              May 18, 2005




                 XII
BLANK PAGE
          REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                  CLIENT SUPPORT CENTER
            CONTROLS AND TESTING OF CONTROLS
              EUROPEAN CLIENT SUPPORT CENTER
              REPORT NUMBER A050009/T/6/Z05019

                        May 18, 2005

                    TABLE OF CONTENTS

                                                   Page

OBJECTIVE, SCOPE, AND METHODOLOGY                  XII-1

RESULTS OF AUDIT                                   XII-1

INTERNAL CONTROLS                                  XII-2




                                  i
BLANK PAGE
XII-1
XII-2
